No. 20-6
In the

Supreme Court of the United States
__________________
WILLIAM BURKE,
v.

Petitioner,

PROGRESSIVE GULF INSURANCE,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

__________________

BRIEF IN OPPOSITION
__________________
CHRISTOPHER A. ABEL, ESQUIRE
Counsel of Record
WILLCOX & SAVAGE, P.C.
440 Monticello Avenue, Suite 2200
Norfolk, Virginia 23510
Telephone: (757) 628-5500
Facsimile: (757) 628-5566
cabel@wilsav.com
Counsel for Respondent

August 12, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
RULE 29.6 DISCLOSURE STATEMENT
Pursuant to Sup. Ct. R. 29.6, Respondent
Progressive Gulf Insurance Company makes the
following corporate disclosure:
Progressive Gulf Insurance Company is not a
publicly owned corporation or publicly held entity.
Progressive Gulf Insurance Company is owned by The
Progressive Corporation, which is Progressive Gulf
Insurance Company’s parent organization.
The
Progressive Corporation owns 10% or more of
Progressive Gulf Insurance Company’s stock. There
are no other publicly held corporations, nor any other
publicly held entities that have a direct financial
interest in the outcome of this litigation.

ii
TABLE OF CONTENTS
RULE 29.6 DISCLOSURE STATEMENT . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
OPINIONS AND ORDERS BELOW . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL, STATUTORY,
AND RULE PROVISIONS . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
SUMMARY OF THE RESPONDENT’S
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
I. Progressive properly invoked the District Court’s
admiralty jurisdiction, the District Court
properly relied upon the General Maritime Law
as the substantive law of the case, resulting in
the application of Virginia contract law to decide
the dispute, and the same result would have
been obtained had the District Court exercised
the diversity jurisdiction that Progressive also
invoked, in the alternative . . . . . . . . . . . . . . . . . . 9
A. Progressive properly invoked the District
Court’s admiralty jurisdiction. . . . . . . . . . . . . 9
B. The District Court, using General Maritime
Law principles, properly applied Virginia’s
contract construction principles to decide the
case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iii
C. Progressive invoked the District Court’s
diversity jurisdiction, in the alternative, in its
Complaint, the exercise of which would have
led to precisely the same result . . . . . . . . . . . 11
II. Summary judgment does not violate the Seventh
Amendment right to a jury trial, a n d t h e
District Court appropriately applied that
procedure in this case . . . . . . . . . . . . . . . . . . . . . 12
A. Summary judgment itself does not violate the
Seventh Amendment . . . . . . . . . . . . . . . . . . . 12
B. Summary judgment was appropriately
awarded in this case . . . . . . . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iv
TABLE OF CITED AUTHORITIES
CASES
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 106 S. Ct. 2505,
91 L. Ed.2d 202 (1986) . . . . . . . . . . . . . . . . . 13, 14
Baranowski v. Hart,
486 F.3d 112 (5th Cir. 2007). . . . . . . . . . . . . . . . 14
Calvi v. Knox County,
470 F.3d 422 (1st Cir. 2006) . . . . . . . . . . . . . . . . 14
Ex parte Peterson,
253 U.S. 300 (1920). . . . . . . . . . . . . . . . . . . . . . . 13
Fid. & Deposit Co. of Maryland v. United States,
187 U.S. 315, 23 S. Ct. 120,
47 L. Ed. 194 (1902) . . . . . . . . . . . . . . . . . . . 13, 14
Graham v. Milky Way Barge, Inc.,
811 F.2d 881 (5th Cir. 1987). . . . . . . . . . . . . . . . 10
Irwin v. Eagle Star Ins. Co.,
455 F.2d 827 (5th Cir. 1972). . . . . . . . . . . . . . . . . 9
Jefferson v. Sewon Am., Inc.,
891 F.3d 911 (11th Cir. 2018). . . . . . . . . . . . . . . 14
La Reunion Francaise SA v. Barnes,
247 F.3d 1022 (9th Cir. 2001). . . . . . . . . . . . . . . . 9
New England Mut. Marine Ins. Co. v. Dunham,
78 U.S. 1, 20 L. Ed. 90 (1870). . . . . . . . . . . . . . . . 9

v
Parklane Hosiery Co. v. Shore,
439 U.S. 322, 99 S. Ct. 645,
58 L. Ed.2d 552 (1979) . . . . . . . . . . . . . . . . . 13, 14
Shannon v. Graves,
257 F.3d 1164 (10th Cir. 2001). . . . . . . . . . . . . . 14
Stanko v. Mahar,
419 F.3d 1107 (10th Cir. 2005). . . . . . . . . . . . . . 15
Va. Farm Bur. Mut. Ins. Co. v. Williams,
677 S.E.2d 299 (Va. 2009). . . . . . . . . . . . . . . . . . 11
Wilburn Boat Co. v. Fireman’s Fund Ins. Co.,
348 U.S. 310, 75 S. Ct. 368,
99 L. Ed. 337 (1955) . . . . . . . . . . . . . . 9, 10, 11, 12
CONSTITUTION AND STATUTES
U.S. Const. art. III, § 2, cl. 1 . . . . . . . . . . . . . . . . . 1, 2
U.S. Const. amend. VII . . . . . . . . . . . . . . . . . . passim
28 U.S.C.A. § 1292 . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4
28 U.S.C.A. § 1332 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C.A. § 1333 . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C.A. § 1391 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
RULES
Fed. R. Civ. P. 9(h) . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Fed. R. Civ. P. 56(c) . . . . . . . . . . . . . . . . . . . . . . . . . 13

1
OPINIONS AND ORDERS BELOW
Progressive Gulf Ins. Co. v. Burke, 791 F. App’x 432
(4th Cir. 2020) (Fourth Circuit’s affirming the Western
District’s grant of summary judgment to Progressive).
Progressive Gulf Ins. Co. v. Burke, No. 7:18-CV00293, 2019 WL 2076403, at *1 (W.D. Va. May 10,
2019), aff’d, 791 F. App’x 432 (4th Cir. 2020) (Order
and Memorandum Opinion granting summary
judgment to Progressive).
Progressive Gulf Ins. Co. v. Burke, No. 18CV00293,
2019 WL 2263201, at *1 (W.D. Va. Apr. 15, 2019)
(Order granting exclusion of William and Travis Burke
as experts).
RELEVANT CONSTITUTIONAL, STATUTORY,
AND RULE PROVISIONS
A. The United States Constitution
Article III, § 2
Section 2. The judicial Power shall extend to all
Cases, in Law and Equity, arising under this
Constitution, the Laws of the United States, and
Treaties made, or which shall be made, under
their Authority;--to all Cases affecting
Ambassadors, other public Ministers and
Consuls;--to all Cases of admiralty and maritime
Jurisdiction;--to Controversies to which the
United States shall be a Party;--to Controversies
between two or more States;--between a State
and Citizens of another State;--between Citizens
of different States;--between Citizens of the

2
same State claiming Lands under Grants of
different States, and between a State, or the
Citizens thereof, and foreign States, Citizens or
Subjects.
U.S. Const. art. III, § 2, cl. 1
In Suits at common law, where the value in
controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved, and no
fact tried by a jury, shall be otherwise reexamined in any Court of the United States,
than according to the rules of the common law.
U.S. Const. amend. VII
In suits at common law, where the value in
controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved, and no
fact tried by a jury, shall be otherwise
reexamined in any court of the United States,
than according to the rules of the common law.
B. The United States Code
§ 1333. Admiralty, maritime and prize cases
The district courts shall have original
jurisdiction, exclusive of the courts of the States,
of:
(1) Any civil case of admiralty or maritime
jurisdiction, saving to suitors in all cases all
other remedies to which they are otherwise
entitled.
....
28 U.S.C.A. § 1333 (1).

3
§ 1332. Diversity of citizenship; amount in
controversy; costs
(a) The district courts shall have original
jurisdiction of all civil actions where the matter
in controversy exceeds the sum or value of
$75,000, exclusive of interest and costs, and is
between(1) citizens of different States;
28 U.S.C.A. § 1332(a).
§ 1391. Venue generally
(b) Venue in general.--A civil action may be
brought in-(1) a judicial district in which any defendant
resides, if all defendants are residents of the
State in which the district is located;
(2) a judicial district in which a substantial part
of the events or omissions giving rise to the
claim occurred, or a substantial part of property
that is the subject of the action is situated; or
28 U.S.C.A. § 1391(b)(1)-(2).
§ 1292. Interlocutory decisions
(a) Except as provided in subsections (c) and (d)
of this section, the courts of appeals shall have
jurisdiction of appeals from:
...

4
(3) Interlocutory decrees of such district
courts or the judges thereof determining the
rights and liabilities of the parties to
admiralty cases in which appeals from final
decrees are allowed.
28 U.S.C.A. § 1292.
C. Federal Rules of Civil Procedure
9(h) Admiralty or Maritime Claim.
(1) How Designated. If a claim for relief is within
the admiralty or maritime jurisdiction and also
within the court's subject-matter jurisdiction on
some other ground, the pleading may designate
the claim as an admiralty or maritime claim for
purposes of Rules 14(c), 38(e), and 82 and the
Supplemental Rules for Admiralty or Maritime
Claims and Asset Forfeiture Actions. A claim
cognizable only in the admiralty or maritime
jurisdiction is an admiralty or maritime claim
for those purposes, whether or not so designated.
(2) Designation for Appeal. A case that includes
an admiralty or maritime claim within this
subdivision (h) is an admiralty case within 28
U.S.C. § 1292(a)(3).

5
STATEMENT OF THE CASE
Petitioner William Burke (hereinafter, “Burke”) had
a large motor yacht, the CALUSA EXPLORER,
designed and custom-built for himself when he lived in
Florida. He then moved to the mountains of western
Virginia and had the CALUSA EXPLORER trucked
overland and launched into the waters of Smith
Mountain Lake, where he kept the vessel tied up at a
dock behind his house. Once the CALUSA EXPLORER
was there, Burke bought a policy of marine insurance
from Progressive Gulf Insurance Company
(hereinafter, “Progressive”). In order to be afforded
coverage under that policy, Burke was required
properly to winterize his vessel prior to the onset of
cold weather each year and to keep the CALUSA
EXPLORER in a seaworthy condition. He did neither.
As a result, during a cold spell in January of 2018, the
CALUSA EXPLORER sank at her mooring behind
Burke’s house. Progressive investigated that loss and
determined that Burke’s yacht flooded and sank as a
direct result of his failure properly to winterize the
CALUSA EXPLORER, which also rendered the vessel
unseaworthy. Because of that, Progressive denied
Burke’s claim for damage arising out of the sinking.
Burke disputed Progressive’s denial of his claim.
Accordingly, Progressive sought a declaratory
judgment from the United States District Court for the
Western District of Virginia that its policy afforded no
coverage for this loss. Based on Burke’s own sworn
admissions concerning the facts of his case and the
plain language of Progressive’s policy, the District
Court awarded summary judgment to Progressive,

6
finding no coverage for this loss because Burke had
failed to keep the CALUSA EXPLORER seaworthy.
Burke—who had been represented by counsel before
the District Court—then appealed, pro se, to the Fourth
Circuit Court of Appeals.1 That appeal was a brazen
and misguided attempt to relitigate the merits of the
case. It included Burke’s attempt to introduce new
“evidence” and his making new arguments not made in
the trial court. In a per curiam opinion, the Fourth
Circuit, declining to address issues first raised on
appeal, found no error in the proceedings below and
affirmed the District Court’s grant of summary
judgment.
Now, in seeking a writ from this Court, Burke for
the first time raises a challenge to the District Court’s
jurisdiction to decide his case. Likewise, although never
raised before, he challenges the constitutionality of
summary judgment as a procedural device. Yet neither
assignment of error has any merit. The District Court
unquestionably had jurisdiction to decide the
1

It should be noted that Burke drifts in and out of pro se status as
and when it suits his needs. Despite being nominally pro se now,
he has been represented by no fewer than four attorneys at one
time or another in this case. Significantly, he was represented by
counsel when his Examination Under Oath was taken during
Progressive’s investigation of this loss and throughout the entirety
of his case’s pendency before the District Court. Thereafter, he
reverted to pro se status, resulting in the Fourth Circuit being
remarkably patient with him and according him considerable
leniency with regard to its deadlines and rules. Yet, by the end of
Burke’s appeal before the Fourth Circuit, it was plain that his “pro
se” briefing there was being ghostwritten by an attorney. That
also appears to be so in regard to Burke’s instant Petition for a
Writ of Certiorari.

7
underlying case, both under its constitutional grant of
admiralty jurisdiction and—alternatively—under that
court’s diversity jurisdiction as well. As for Burke’s
contention that summary judgment is itself
unconstitutional, he’s just wrong. Not only has this
Court consistently upheld the constitutionality of trial
courts deciding cases on summary judgment, but the
facts of Burke’s case are particularly well suited to
pretrial resolution.
Burke has had his day in court. He lost. He
exercised his right of appeal and lost again. He is now
down to grasping at straws. Given all that has gone
before, Progressive respectfully submits that further
litigation of this case is unwarranted. It manifestly
would be a waste of this Court’s time and the parties’
money. Accordingly, it asks that Burke’s Petition be
denied.
SUMMARY OF THE RESPONDENT’S
ARGUMENT
Petitioner’s Question I: Is an insurance company
allowed to manipulate outdated, obsolete
maritime laws in order to falsely claim that a
vessel is located in navigable waters with the
primary goal of putting the insured at a legal and
financial disadvantage?
Progressive did not “manipulate” anything. It
invoked the District Court’s admiralty jurisdiction
because a policy of marine insurance is a maritime
contract. There can be no doubt that the District Court
was properly empowered to interpret the parties’ rights
and obligations under it by exercising its constitutional

8
grant of admiralty jurisdiction. By focusing on whether
the CALUSA EXPLORER was located on navigable
waters when it sank, Burke is conflating the federal
courts’ admiralty tort jurisdiction with its jurisdiction
to hear cases arising out of maritime contracts. As it is,
the District Court relied on Virginia state law to supply
the rule of decision in Burke’s case in any event, and
Progressive invoked the District Court’s diversity
jurisdiction in the alternative, the exercise of which
would have led to precisely the same result.
Petitioner’s Question II: Did the [sic] Summary
Judgment deny Mr. Burke’s constitutional right
to a fair trial under Amendment 7?
The award of summary judgment in this case did
not deprive Burke of any constitutional right. This
Court consistently has held that litigants are not
deprived of their Seventh Amendment right to trial
when material facts are not in dispute. Burke
admitted that he failed to comply with the policy’s
requirement that he maintain his vessel in a
“seaworthy” condition, as that term is defined in
Progressive’s policy. Because of that failure, there can
be no coverage under the policy for his claim.
Moreover, by failing to raise this issue before, Burke
has forfeited the right to premise his appeal on it, for
the first time, now.

9
ARGUMENT
I. Progressive properly invoked the District
Court’s admiralty jurisdiction, the District
Court properly relied upon the General
Maritime Law as the substantive law of the
case, resulting in the application of Virginia
contract law to decide the dispute, and the
same result would have been obtained had the
District Court exercised the diversity
jurisdiction that Progressive also invoked, in
the alternative.
A. Progressive properly invoked the District Court’s
admiralty jurisdiction.
Progressive’s declaratory judgment action invoked
the admiralty jurisdiction of the District Court because
the policy of marine insurance in dispute was and is a
maritime contract. See Wilburn Boat Co. v. Fireman’s
Fund Ins. Co., 348 U.S. 310, 313, 75 S. Ct. 368, 370, 99
L. Ed. 337 (1955) (“Since the insurance policy here sued
on is a maritime contract the Admiralty Clause of the
Constitution brings it within federal jurisdiction.”)
(citing New England Mut. Marine Ins. Co. v. Dunham,
78 U.S. 1, 2, 20 L. Ed. 90 (1870); see also Irwin v. Eagle
Star Ins. Co., 455 F.2d 827, 828-29 (5th Cir. 1972) (“A
hundred years ago, the Supreme Court, in a thoroughly
exhaustive opinion authored by Mr. Justice Bradley,
held that a contract of marine insurance is a maritime
contract, within the admiralty and maritime
jurisdiction, though not within the exclusive
jurisdiction of the United States Courts . . . .”) (internal
citations omitted); La Reunion Francaise SA v. Barnes,
247 F.3d 1022 (9th Cir. 2001) (finding an insurance

10
policy for a pleasure vessel is within that court’s
admiralty jurisdiction).
Burke appears not to have understood the foregoing
jurisdictional basis for this case. Instead, he has seized
on the concept of “navigable waters”, which would be a
key component of the jurisdictional analysis if the
instant action involved a maritime tort. It doesn’t.
This is a maritime contract case.
That’s why
Progressive never alleged that the CALUSA
EXPLORER sank in navigable waters. It didn’t need
to. Progressive issued Burke a marine insurance
policy. Any dispute over the rights and obligations of
the parties to that maritime contract fall squarely
within the federal courts’ constitutional grant of
admiralty jurisdiction.
B. The District Court, using General Maritime Law
principles, properly applied Virginia’s contract
construction principles to decide the case.
The District Court properly applied Virginia’s
contract construction principles in interpreting
Progressive’s policy and applying them to the facts of
Burke’s claim. In Wilburn Boat, this Court held that,
under the General Maritime Law, disputes involving
marine insurance contracts are to be governed by state
law unless an established federal maritime common
law rule applies, or the need for national uniformity
warrants fashioning such a rule. See Wilburn Boat, 348
U.S. at 321; Graham v. Milky Way Barge, Inc., 811 F.2d
881, 885 (5th Cir. 1987). In this instance, no federal
maritime common law rule was implicated, nor is there
a need for national uniformity that would justify
fashioning such a rule. Thus, the Progressive policy at

11
issue is to be construed under state law. In this case,
it is Virginia’s contract interpretation principles that
should have been—and were—applied.
Burke was and is a Virginia resident who applied to
Progressive for a policy of marine insurance that was
delivered to him in Virginia, and which was intended
to insure a vessel that he operated and kept solely in
Virginia. Because of that, under Wilburn Boat, the
District Court turned to the contract construction law
of Virginia to interpret the Progressive policy Burke
was issued for the CALUSA EXPLORER. See
Progressive Gulf Ins. Co. v. Burke, No. 7:18-CV-00293,
2019 WL 2076403, at *3 (W.D. Va. May 10, 2019), aff’d,
791 F. App’x 432 (4th Cir. 2020). Under Virginia law,
the interpretation of an insurance policy presents a
question of law. Hence, given the facts of this case, the
District Court was able properly to decide the coverage
issue presented at the summary judgment stage. See
Va. Farm Bur. Mut. Ins. Co. v. Williams, 677 S.E.2d
299, 302 (Va. 2009).
C. Progressive invoked the District Court’s diversity
jurisdiction, in the alternative, in its Complaint,
the exercise of which would have led to precisely
the same result.
Burke’s challenge to the District Court’s exercise of
its admiralty jurisdiction in this instance is moot.
Burke is a citizen of Virginia. Progressive is a
corporate citizen of Ohio. The amount in dispute
exceeded $75,000. Because of that, Progressive’s
Complaint seeking declaratory judgment also invoked
the diversity jurisdiction of the District Court, in the

12
alternative.2 Had the District Court actually decided
the case under its grant of diversity jurisdiction, it
necessarily would have applied the same Virginia rule
of contract construction that it applied—via Wilburn
Boat—in deciding the case under its admiralty
jurisdiction . . . leading to precisely the same result.
Hence, Burke’s attacking the District Court’s decision
on jurisdictional grounds is just that much more of a
legal red herring.
II. Summary judgment does not violate the
Seventh Amendment right to a jury trial,
and the District Court appropriately applied
that procedure in this case.
A. Summary judgment itself does not violate the
Seventh Amendment.
Burke claims that the District Court granting
Progressive summary judgment deprived him of his
constitutional right to trial by jury.3 He is wrong about
that. This Court long ago made it clear that the federal
courts’ well-entrenched summary judgment procedure
itself does not deprive litigants of their Seventh
Amendment rights. That Amendment provides:
In suits at common law, where the value in
controversy shall exceed twenty dollars, the
2

In his Answer to Progressive’s Complaint, Burke admitted that
the trial court properly has diversity jurisdiction over this dispute.
3

Burke is raising this issue for the first time now. Because he has
not raised or preserved the issue before, Progressive submits that
it is not properly before this Court as a basis for granting Burke
the writ he is now requesting.

13
right of trial by jury shall be preserved, and no
fact tried by a jury, shall be otherwise reexamined in a Court of the United States, than
according to the rules of the common law.
U.S. Const. amend. VII. Yet this Court has held that
“[n]o one is entitled in a civil case to trial by jury
unless and except so far as there are issues of fact
to be determined.” Ex parte Peterson, 253 U.S. 300,
310 (1920) (emphasis added). The constitutionality of
that rule consistently has been upheld. For example,
In Parklane Hosiery Co. v. Shore, this Court reasoned
that “many procedural devices developed since 1791
that have diminished the civil jury’s historic domain
have been found not to be inconsistent with the
Seventh Amendment,” including summary
judgment. 439 U.S. 322, 336, 99 S.Ct. 645, 58 L. Ed.
2d 552 (1979) (citing Fid. & Deposit Co. of Maryland v.
United States, 187 U.S. 315, 319-21, 23 S. Ct. 120, 47 L.
Ed. 194 (1902)) (emphasis added).
Summary judgment is appropriate when the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact and that the moving party is entitled to a
judgment as a matter of law. Fed. R. Civ. P. 56(c). “[A]t
the summary judgment stage the judge’s function is not
himself to weigh the evidence and determine the truth
of the matter;” rather, the inquiry is “whether the
evidence presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that
one party must prevail as a matter of law.” Anderson v.

14
Liberty Lobby, Inc., 477 U.S. 242, 249-50, 106 S. Ct.
2505, 91 L. Ed. 2d 202 (1986).
When properly applied, summary judgment does not
violate the Seventh Amendment because a court
awarding summary judgment decides only questions of
law, as no triable issue of fact exists to be submitted to
a jury. Shannon v. Graves, 257 F.3d 1164, 1167 (10th
Cir. 2001) (citing Fid. & Deposit Co., 187 U.S. at 31920). This procedure balances litigants’ right to a jury
with the proper functioning of our courts, helping to
insure that only cases with genuine disputed issues of
fact go to trial, thereby conserving limited judicial time
and resources.
In Jefferson v. Sewon Am., Inc., the 11th Circuit
addressed the constitutionality of summary judgment,
writing, “an amicus curiae . . . advances the radical
argument that summary judgment is always
unconstitutional. Nonsense. The Supreme Court made
clear long ago that ‘summary judgment does not violate
the Seventh Amendment.”’ 891 F.3d 911, 919 (11th Cir.
2018) (finding a jury trial unnecessary when pertinent
facts are indisputable from the record and the only
remaining matters are legal questions) (quoting
Parklane Hosiery Co., 439 U.S. at 336 (citing Fid. &
Deposit Co., 187 U.S. at 319-21)). The foregoing
proposition is widely recognized across the Circuits.
See, e.g., Calvi v. Knox County, 470 F.3d 422, 427 (1st
Cir. 2006) (finding argument that summary judgment
violates right to jury trial is “hopeless” because that
right exists only with respect to genuinely disputed
issues of material fact); Baranowski v. Hart, 486 F.3d
112, 126 (5th Cir. 2007) (finding the function of a jury

15
is to try material facts; where no such facts are in
dispute, there is no occasion for a jury trial); Stanko v.
Mahar, 419 F.3d 1107, 1112 (10th Cir. 2005) (finding
proper entry of summary judgment does not violate
Seventh Amendment where no triable issues exist to be
submitted to a jury).
There is nothing wrong with summary judgment as
a procedural device in deciding cases before a federal
trial court. It is a jury’s job to decide questions of fact.
It is the court’s job to decide questions of law. When,
as here, there are no disputed questions of material
fact to be decided, there simply is no need for—and,
clearly, no right to—a jury to hear the case.
B. Summary judgment was appropriately awarded
in this case.
Setting aside Burke’s unwarranted and
unsupported claim that insurance companies unfairly
seek out summary judgment in order to avoid paying
claims, his remaining contention that summary
judgment was improperly awarded in this case just
does not comport with the facts. To begin with, the
same District Court that Burke claims was so unfair to
him declined to award Progressive summary judgment
on the question of whether Burke had properly
winterized the CALUSA EXPLORER. See Progressive
Gulf Ins. Co., 2019 WL 2076403 at *3. Indeed, it
decided that, viewing the facts in the light most
favorable to Burke, a genuine issue of material fact
existed regarding the “local custom” for winterizing
boats on Smith Mountain Lake. See Id. Unfortunately
for Burke, there simply were no material facts in
dispute when it came to his failing to maintain the

16
CALUSA EXPLORER in a “seaworthy” condition, as
that term was defined in Progressive’s policy.
Among other things, the Progressive policy specified
that, in order to satisfy its requirement that an insured
vessel be maintained in a seaworthy condition, Burke
had to follow all customary and manufacturerrecommended maintenance guidelines.4 See Id. at

4

The Policy defines “Seaworthy” as:
GENERAL DEFINITIONS
13. “Seaworthy” means fit to withstand the foreseeable
and expected conditions of weather, wind, waves, and the
rigors of normal and foreseeable use in whatever type of
waters a watercraft will be located. For a watercraft to be
considered seaworthy, you must (without limitation):
a. exercise due diligence to properly manage the
watercraft;
b. comply with all federal safety standards and
provisions; and
c.

follow all customary and manufacturerrecommended maintenance guidelines.

Progressive Gulf Ins. Co., 2019 WL 2076403 at *2.
The Policy also excludes from its coverage those losses that
occur because a watercraft is not seaworthy:
Your Representations to Us Regarding Your Covered
Watercraft.
You represent to us that, at the inception of this policy, your
covered watercraft is in seaworthy condition. Violation of
this representation will void this policy from its inception.
You further represent to us that you will continue to
maintain your covered watercraft in a seaworthy condition

17
*3-*4. Burke did not. Indeed, he admitted that he did
not under oath.5 See id. at *1. Burke’s son, to whom
Burke had delegated the task of winterizing the
CALUSA EXPLORER, separately confirmed in writing
that those guidelines were not followed. See id. And the
unrebutted evidence presented to the District Court
was that it was because of Burke’s admitted failure to
follow the maintenance guidelines of the CALUSA
EXPLORER’s air conditioning system’s manufacturer
that the vessel sank at its berth in January of 2018.
See id. at *1, *3-*4. Likewise, there was no dispute
about what Burke’s Progressive policy required in
regard to following those manufacturer’s guidelines.
Both those policy terms and the guidelines at issue are
undeniably plain and unambiguous. They mean just
what they say. And Burke admitted that he did not
comply with them. Small wonder, then that the
District Court granted Progressive summary judgment
in this case, or that the Fourth Circuit saw no reason
whatsoever to disturb the District Court’s judgment on
appeal.

and to comply with all federal safety standards and
provisions. This policy does not cover any loss or damages
caused by your failure to maintain your covered watercraft
in seaworthy condition or to comply with all federal safety
standards and provisions.
Id.
5

Not only did Burke not comply with the manufacturer’s
instructions for the CALUSA EXPLORER’s air-conditioning
system, he admitted that he had never even seen them before
when presented with a copy of them in his examination under
oath, conducted well after the CALUSA EXPLORER sank.

18
If ever there was a case for which an award of
summary judgment was appropriate, this was it.
Burke may not have liked the fact that the District
Court granted Progressive a declaratory judgment that
its policy did not afford Burke coverage for the loss of
the CALUSA EXPLORER, but the law and the facts of
this case—facts to which Burke himself admitted under
oath—could not have led to any other result. There
was nothing illegal, unfair, or unconstitutional about
summary judgment being awarded in this case. The
facts were undisputed and the law was clear. Any
other outcome would itself have been improper.
CONCLUSION
William Burke got everything to which he was
entitled in the proceedings before the United States
District Court for the Western District of Virginia. And
the Fourth Circuit Court of Appeals was absolutely
correct to affirm those same results. The trial court
had multiple appropriate bases upon which to exercise
jurisdiction over this case. It relied on the appropriate
law to inform its decision. That decision was reached
via the constitutionally sound process of summary
judgment and premised firmly and appropriately on
the lack of any genuine dispute of material facts in this
case. For the very same reasons that both the District
Court and the Court of Appeals have ruled that
Progressive’s policy afforded no coverage to William
Burke for the CALUSA EXPLORER’s sinking in 2018,
Progressive Gulf Insurance Company respectfully
prays that this Court deny Burke’s instant Petition for
Writ of Certiorari.

19
Respectfully submitted,
CHRISTOPHER A. ABEL, ESQUIRE
Counsel of Record
WILLCOX & SAVAGE, P.C.
440 Monticello Avenue, Suite 2200
Norfolk, Virginia 23510
Telephone: (757) 628-5500
Facsimile: (757) 628-5566
cabel@wilsav.com
Counsel for Respondent
Progressive Gulf Insurance Company

